Report No DODIG-2012-037             January 6, 2012




        American Recovery and Reinvestment Act -
       U.S. Army Corps of Engineers Mobile District
      Contractor Performance and Reporting Controls
                 Were Generally Effective
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Office of Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571)
372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, Virginia 22350-1550




Acronyms and Abbreviations
CEFMS                         Corps of Engineers Financial Management System
COR                           Contracting Officer’s Representative
FAR                           Federal Acquisition Regulation
QMD                           Quantitative Methods Division
USACE                         United States Army Corps of Engineers
                                         INSPECTOR GENERAL
                                          DEPARTMENT OF DEFENSE
                                          4800 MARK CENTER DRIVE
                                       ALEXANDRIA, VIRGINIA 22350-1500
                                                                                           January 6, 2011

MEMORANDUM FOR COMMANDING GENERAL, U.S. ARMY CORPS OF
                 ENGINEERS
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: American Recovery and Reinvestment Act-U.S. Army Corps of Engineers
         Mobile District Contractor Performance and Reporting Controls Were
         Generally Effective (Report No. DODIG-2012-037)

The DoD Office ofInspector General is performing audits of DoD's implementation of
Public Law 111-5, "American Recovery and Reinvestment Act of2009," February 17,
2009 (Recovery Act). Our objective was to determine whether DoD and its Components
were implementing the Recovery Act. Specifically, we evaluated the effectiveness of
Government controls over contractor performance and reporting on selected U.S. Army
Corps of Engineers Mobile District (USACE Mobile) projects, including contracts
awarded to qualified small businesses. We evaluated 11 of 153 contract actions l
supporting 4 projects, totaling $53.6 million, out of 124 projects, totaling $419.5 million.

The USACE Mobile contractor performance and reporting controls were generally
effective to ensure that the four projects were properly executed. Contracting personnel
established adequate quality controls throughout the life of each contract to ensure that
Recovery Act funds were used for contract requirements, monitored contracts to ensure
intended outcomes were achieved, and ensured that the use of funds were reported in a
clear and understandable manner. USACE Mobile personnel did not have written
procedures for the timely review and return of contractor submittals. However, during
our audit, they took corrective action by including the contractor submittal procedures in
the Quality Assurance Surveillance Plan, including more timely reviews .

Recovery Act Projects at USACE Mobile
USACE Mobile provides services to the nation through its Civil Works and Military
Programs. We reviewed four projects under the the two programs. The Civil Works
Programs include water resource development activities, including flood control,
navigation, recreation, and infrastructure and environmental stewardship. The USACE
Civil Works projects we reviewed were in Alabama, Florida, Georgia, and Mississippi.
The projects that the Mobile District managed include harbor and flood control works
within the drainage basins of six major river systems.

The USACE Military Programs provide engineering and construction, real estate, and
environmental management products and services. We reviewed projects in Oklahoma
and Maryland that support the Army, Air Force, National Aeronautics and Space
Administration, and other Federal agencies. The projects consisted of the design and


I A contract action consisted affixed-price contracts as well as task orders or modifications to an existing
contract.
construction management of such diverse facilities as medical centers, dormitories,
aircraft facilities, sewage treatment plants, office complexes, and family housing.

We reviewed the following four projects at the USACE Mobile District:

•   Black Warrior and Tombigbee Rivers Project. This project in Tuscaloosa,
    Alabama, consisted of the planning, supervision, administration, labor, equipment,
    materials, supplies, and replacement or repair parts required to maintain Government-
    owned facilities and equipment on the Black Warrior and Tombigbee River System
    and the Alabama River Locks and Dams. Figure 1 shows the Bankhead Spillway at
    the Bankhead Lock and Dam in Tuscaloosa, Alabama. USACE Mobile provided
    management and oversight of the electrical, mechanical, and general maintenance and
    repair at locks, spillways, and associated project structures. It also provided
    maintenance of lock control systems and dredge disposal areas. We reviewed four
    contract actions; two were closed out, one was complete but not closed out, and one
    was 54-percent complete as of May 2011.

                  Figure 1. Bankhead Spillway at the Bankhead Lock
                           and Dam in Tuscaloosa, Alabama




    •   Tennessee-Tombigbee Waterway Project. This project was in Columbus,
        Mississippi, where USACE Mobile was providing management and oversight of
        the maintenance at various locks and dams and recreation areas along the
        Tennessee‐Tombigbee Waterway, including navigation channel maintenance and
        slope repair and maintenance. The Tennessee-Tombigbee Waterway has 10 locks
        and dams and related navigation structures and features, such as spillways, flow
        structures, stabilization structures, levees, dikes, campgrounds, visitor centers, and
        day use areas for boating, fishing, picnicking, swimming, and other recreation
        activities. We reviewed five contract actions; three were closed out, and two were
        complete but not closed out as of May 2011.

        Figure 2 shows the Supervisory Control and Data Acquisition and Hydromet
        Equipment at the Stennis Lock and Dam in Columbus.




                                              2
                           Figure 2. Supervisory Control and Data Acquisition
                             and Hydromet Equipment for the Waterway
                                     at the Stennis Lock and Dam




    •   Tinker Air Force Base Project. Tinker Air Force Base, Oklahoma, had a
        design-build 2 contract for a single-story child development building that included
        multipurpose rooms, isolation rooms, kitchen area and equipment, administrative
        space, authorized equipment, fire protection, and utilities. We reviewed one
        contract action, which was 24-percent complete at the time of the audit site visit
        in May 2011.

    •   Walter Reed Army Institute of Research Project. The purpose of this project
        at Forest Glen, Maryland, was to repair water leakage problems by replacing all
        below-grade waterproofing at the patio plaza area at Building 503 and its tunnel
        area in the basement. We reviewed one contract action, which was 51-percent
        complete at the time of the audit site visit in May 2011.

USACE Mobile Contractor Performance Controls Were
Generally Effective
The USACE Mobile contractor performance and reporting controls were generally
effective for the 11 contract actions totaling $53.6 million. Specifically, contracting
personnel:

    •   effectively managed quality controls over contractor performance for the
        11 contract actions (see Attachment);

    •   ensured that Recovery Act funds were available and used to meet contract
        requirements, including timely and proper payments to contractors;

    •   monitored the 11 contract actions to ensure that contract requirements were met;
        and,


2
  Design-build is a method of project delivery in which one entity, the design-build team, works under a
single contract with the project owner to provide design and construction services.

                                                     3
   •   ensured that contractors reported their use of Recovery Act funds in a clear and
       understandable manner.

In addition, USACE Mobile contracting personnel effectively validated contractors’
small business (Section 8[a] Program) status. As a result, the Government accepted the
contracted goods and services without unnecessary delays and cost overruns for eight
completed and three ongoing contract actions, and as of May 31, 2011, made payments
totaling $39.5 million.

Contractor Performance and Reporting Controls
Generally, USACE Mobile contracting personnel properly executed Recovery Act
projects, including managing contractor performance, administering contract funding,
monitoring delivery of intended outcomes, and reporting the use of Recovery Act funds.
We selected 4 of 124 projects at USACE Mobile based on project funding in excess of
$1 million, ongoing or completed contracts, and contracts awarded to Section 8(a) small
businesses. The four projects had a total of 153 contract actions. We judgmentally
selected 11 of the 153 contract actions totaling $53.6 million based on high-dollar amount
and type of contract.

For the 11 contract actions, USACE contracting personnel prepared inspection and
technical reports and other supporting documentation that detailed the work performed by
the contractor. They also obtained and reviewed pay estimates, pay requests, invoices,
and other payment supporting documentation from the contractors before processing
payments. They performed these reviews to ensure that the amounts paid were
appropriate. In addition, USACE contracting personnel reviewed submissions to
https://www.FederalReporting.gov to validate that the contractors complied with the
Recovery Act recipient reporting requirements.

Contractor Performance Controls Were Effective
The USACE Mobile contracting personnel effectively managed quality controls over
contractor performance for the 11 contract actions. Federal Acquisition Regulation
(FAR) 46.2, “Contract Quality Requirements,” states that the contracting officer should
include in the solicitation and contract the appropriate quality requirements. The type
and extent of the contract quality requirements needed depends on the particular
acquisition and may range from inspection at time of acceptance to a contractor’s
implementation of a comprehensive quality control program. Each contract action
reviewed had a Contractor Quality Control Plan or similar contract administration plan in
place to check that all requirements of the contract were met.

The quality control plan identifies the personnel, procedures, controls, instructions, tests,
records, and forms to be used by the contractor. It also establishes the contractor’s
responsibilities for maintaining an effective quality control system. FAR 46.202-3,
“Standard Inspection Requirements,” requires the contractor to keep complete, and make
available to the Government, records of its inspection work. It also gives the
Government the right to make inspections and tests while work is in process. For the 11


                                              4
contract actions, each contractor performed inspections of materials, supplies, and work
performed by subcontractors.

In addition, the Government performs inspections to ensure contractor compliance with
specifications and regulations. Inspection activities must also include monitoring of
subcontractor performance, inventory control, and procurement actions.

The 11 contract actions included a quality control plan or similar quality assurance plan
within either the contract, statement of work, or contract administration plan. The plans
included several forms to document the USACE Mobile inspections, including the daily
Inspector Quality Assurance Reports and monthly Quality Control Reports. For two
contract actions, USACE inspectors did not use these inspection reports; however, they
provided us with a copy of a daily planner or e-mails they used to document their
inspection of the work performed.

The inspection reports showed that USACE inspectors documented the date, location,
and description of work performed and, if applicable, deficiencies found during their
inspection. When they found deficiencies, the USACE inspector notified the contractor
to take corrective action. For instance, in the Inspector Quality Assurance Report dated
June 2, 2010, the USACE inspector informed the contractor that an operator was required
for each piece of equipment. He further stated that USACE would enforce a penalty
deduction for one dozer operator until another operator was in place.

Recovery Act Funds Were Available for Contract Requirements
and Contractor Payments
Contracting personnel administered Recovery Act funds to meet contract requirements,
including timely and proper payments to contractors. To fund Recovery Act projects,
USACE Headquarters used funding authorization documents 3 to transfer money to the
USACE Mobile District. For Civil Works projects, USACE Headquarters also prepared
work allowance letters 4 authorizing the use of Recovery Act funds on individual projects.
Resource Management personnel within the USACE Mobile District told us that for
Military Program projects, they use a bulk Army Management Structure Code that gives
USACE the authority to move funding within an appropriation for the individual projects.

Our review of 82 contractor pay estimates, contractor pay requests, and supporting
invoices, totaling approximately $39.5 million, showed that contractor pay requests
matched payments USACE made for each of the 11 contract actions. USACE
contracting personnel stated that when an invoice is received, it is reviewed and
compared to supporting documents, such as invoices and receipts, to verify that the costs


3
  The funding authorization document is a funds distribution document that allows money to transfer from
USACE Headquarters to the district. It is prepared and issued by personnel in the Resource Management
Directorate at USACE Headquarters.
4
  The work allowance letter is a work authorization document that provides instructions from USACE
Headquarters as to the allocation of the funds available under the funding authorization document, and it
allows money to transfer from the district to the individual projects.

                                                    5
the contractor requested are accurate. After the contracting personnel compare the
contractor pay requests and pay estimates to the supporting documentation, they enter the
information into the Corps of Engineers Financial Management System (CEFMS). The
contracting officer’s representative (COR) performs a review of the information entered
into CEFMS by the contracting personnel, which includes a review of the invoices and
receipts submitted by the contractor to verify that the pay requests are accurate. After the
COR’s review, the approval is sent electronically to the USACE payment office in
Millington, Tennessee, which prepares the disbursement.

For the payments made by USACE, we compared the contractor pay requests and
contractor pay estimates to funding amounts within CEFMS. The “Obligation Line Item
Status” showed the amount that was obligated and amount paid in CEFMS for each line
item. The “Pay Estimate View Screen” in CEFMS showed the amount approved for
payment to the contractor for the monthly invoice. The dollar amounts and invoice
numbers in the contractor-supplied pay requests and pay estimates matched the USACE-
prepared progress schedules or alternative documents, such as Form 497, “Report of
Operations,” and data in CEFMS “Obligation Line Item Status” and “Pay Estimate View
Screens.”

In addition, USACE contracting personnel ensured that contractor payments were
approved in a timely manner. Title 31, United States Code, Section 3903,“ Prompt
Payment Act,” states payments shall be made 30 days after a proper invoice is received.
Section 5, Code of Federal Regulations, Part 1315, states that an agency should make
payments no more than 7 days before the payment due date. FAR 52.232-25, “Prompt
Payment,” states that the due date for making invoice payments is the 30th day after the
designated billing office receives a proper invoice from the contractor or the 30th day
after Government acceptance of the work or services completed by the contractor. FAR
52.232-27, “Prompt Payment for Construction Contracts,” also states that the due date for
making payments for construction contracts is 14 days after the designated billing office
receives a proper payment request.

USACE contracting personnel did not pay contractors more than the amount requested,
and they made payments by the 14 or 30-day time frame for the 82 payments we
reviewed.

USACE Mobile District Implemented and Monitored
Recovery Act Projects
The USACE Mobile District contracting personnel implemented and monitored the
11 contract actions to ensure that contract requirements were met. Defense Federal
Acquisition Regulation Supplement, “Career Development, Contracting Authority, and
Responsibilities,” states that a COR must be designated in writing, and a copy of the
designation letters must be furnished to the contractor and the contract administration
office. Our review of the contract files showed that contracting officers at
USACE Mobile implemented controls by designating, in writing, the CORs for each of
the 11 contract actions.


                                             6
In addition, contracting personnel included the designation letters in the contract files
with the required signatures. The CORs used appropriate quality assurance surveillance
plans and contractor daily quality control reports to evaluate the quality and timeliness of
work performed. For six of the eight completed contract actions, CORs prepared the
final performance evaluations, in which the contractors received a rating of satisfactory
or higher, before final acceptance. FAR 4.804-4, “Physically Completed Contracts,”
states that a contract is physically complete when the contractor has performed all
services and the Government has accepted these services, or the contract period has
expired. After the contract is complete, FAR 4.804-5, “Procedures for Closing Out
Contract Files,” states that the contracting officer administering the contract must ensure
that a contract completion statement containing the following information is prepared:

   •   contract administration office name and address;
   •   contracting office name and address;
   •   contract number;
   •   last modification number;
   •   last call or order number;
   •   contractor name and address;
   •   dollar amount of excess funds, if any;
   •   voucher number and date, if final payment has been made;
   •   invoice number and date, if the final approved invoice has been forwarded to a
       disbursing office of another agency or activity and the status of the payment is
       unknown;
   •   a statement that all required contract administration actions have been fully and
       satisfactorily accomplished;
   •   name and signature of the contracting officer; and
   •   date.

FAR 42.1502, “Policy,” states past performance evaluations are to be prepared at the time
the work under the contract or order is completed. In addition, interim evaluations are to
be prepared as specified by the agencies to provide current information for source
selection purposes, for contracts or orders with a period of performance, including
options, exceeding 1 year. For the eight contract actions completed, the contract files
contained the closeout packages, letters, and contractor performance evaluation reports.
The documentation showed that the contractor released the Government of all claims
associated with the contract and verified that USACE contracting personnel documented
their release of all excess funds associated with a particular contract action. In addition
the contract completion statement contained the information required by the FAR.

For three of the eight completed contract actions, USACE contracting personnel started
the contract closeout process; however, the entire contracts were not officially closed out
by the contracting officer. The contract file included the past contractor performance
evaluation required by the FAR and additional documents, such as a release of claims
memo from the contractor or a letter from the COR stating that the contractor’s work was
complete. USACE contracting personnel’s procedures for closeouts were adequate and
complied with FAR 4.804 and 42.1502.

                                             7
For the remaining five contract actions, two were complete but not closed out, and three
were ongoing. For these, the daily and monthly quality control reports documented the
inspector’s daily results. The reports also documented weather-related issues that
delayed the contractor’s schedule. For instance, the October 12, 2009, Inspector Quality
Assurance Report, showed that due to heavy rains, the dredge crew spent most of the
night securing the dredge and plant. USACE inspectors properly monitored and
documented the contractor’s performance and communicated any issues to the contractor
for corrective action. We noted no contractor-induced delays or significant quality
control issues.

Recipients Adequately Reported the Use of Recovery Act Funds
Contracting officers complied with Recovery Act oversight requirements to ensure that
recipients reported their use of Recovery Act funds in a clear and understandable manner.
FAR 4.15, “American Recovery and Reinvestment Act–Reporting Requirements,” requires
contractors receiving Recovery Act funds to report on the use of those funds quarterly. In
addition, FAR 52.204-11 outlines the contractors’ reporting requirements, indicating they
must report by the 10th day after the end of the quarter and the specific information they must
report. Also, section 1512 of the Recovery Act requires recipients to provide quarterly data
on the use of Recovery Act funding. The contractor must report information, including but
not limited to:

   •   the dollar amount of contractor invoices,
   •   the supplies delivered and services performed,
   •   an assessment of the completion status of the work,
   •   an estimate of the number of jobs created and the number of jobs retained as a
       result of the Recovery Act funds,
   •   names and total compensation of each of the five most highly compensated
       officers for the calendar year in which the contract is awarded, and
   •   specific information on first-tier subcontractors.

USACE Mobile contracting personnel accessed www.FederalReporting.gov to verify that
the contractors’ reports were clear, understandable, and complete. Contracting personnel
provided us with recipient reports as of January 2011 for the 11 contract actions. The
reports contained the general purpose of the award as well as the nature of the activities
being performed, location of the recipients, cost and status of the contracts, project
outcomes, scope of the projects, and number of jobs created and retained. The contractor
included the required information in the reports and complied with the Recovery Act
requirements.

Contracting Personnel Confirmed Contractor’s
Small Business Status
Contracting personnel validated the contractor’s small business status. Small businesses
self-certify their status with the Small Business Administration, Central Contractor
Registration, and the contractor’s representations and certifications document.
FAR 19.301-1, “Representation by the Offeror,” directs contractors to make a good-faith

                                               8
representation of their small business status, and contracting officers are to accept that
representation unless they have reason to believe otherwise. To qualify as a small
business, the company must meet the Small Business Administration’s established size
standards of the North American Industry Classification System for which they plan to
claim small business status. Small businesses must also update their status every year.

We reviewed one contract designated for small business set-aside. The contract file
included the notification letters to the offerors, the contractor’s representations and
certifications document, the Central Contractor Registration, and the small business
coordination record. The documents verified that the USACE small business specialist
designated the contract action for a small business set-aside using DD Form 2579, “Small
Business Coordination Record,” before beginning the solicitation activities. This meant
that all small businesses could compete for the contract.

Small business set-asides do not use contractor certifications from the Small Business
Administration. However, USACE small business specialists checked the Central
Contractor Registration Web site as well as the contractor’s representations and
certifications document and verified that the contractor was self-registered as a small
business. In addition, they sent out notification letters to all eligible offerors informing
them of the contractor selected and providing them the opportunity to file a challenge for
the small business representation made by the contractor. USACE contracting personnel
stated that they did not receive any protest challenging the selected contractor.

The small business coordination record shows the contracting officer and small business
specialist signatures and dates; the Central Contractor Registration document shows the
contractor’s small business status; and the contractor’s representations and certifications
document shows the contractor’s self-certification, number of employees, North
American Industry Classification System, and Dun and Bradstreet Data Universal
Numbering System. USACE contracting personnel designated the contract action as a
small business set-aside, and maintained the DD Form 2579, “Central Contractor
Registration,” the contractor’s representations and certifications document, and the
notification letters in the contract file. Contracting personnel validated the contractor’s
small business status as required by FAR 19.301-1 before awarding the contract.

Management Actions to Establish Procedures for the
Timely Return of Contractor Submittals
Although contracting personnel generally met their contracting administrative
responsibilities, they did not have procedures for the processing and the return of
contractor submittals. A contract submittal is a document used by a contractor to request
material, supplies, and other items to complete the project. USACE contracting
personnel review the submittal and compare it to the requirements of the contract to
determine whether the items requested by the contractor are needed to complete the
project. In some cases, contractor submittals may require a response from a third party.
For example, the project we reviewed at the Forest Glen Project Management Office
required a response to contractor submittals from Fort Detrick and the Army Medical
Command.

                                             9
USACE Mobile did not have formal procedures for the timely review and return of
contractor submittals. Contracting personnel told us that they have a verbal
understanding and support from the Army Medical Command and Fort Detrick regarding
the submittal process. The Army Medical Command and Fort Detrick personnel worked
with USACE Mobile personnel on previous projects, and they were familiar with how
USACE Mobile operates. USACE Mobile contracting personnel also told us that
nontechnical submittals require a review and response within 30 days. However, of the
70 contractor submittals, 3 were not reviewed within 30 days. Not having procedures
means the response times for submittals will be unknown, and third parties may cause a
delay and create cost overruns for a specific project if they do not meet the deadline.

USACE Mobile personnel agreed with our conclusion, and revised their Quality
Assurance Surveillance Plan to add standard language to document their contract
submittal procedures. The USACE Mobile Chief of Contracting stated that these
procedures will be included in all future contracts. On October 17, 2011, the USACE
Mobile Chief of Contracting provided us with the USACE Mobile District Quality
Assurance Surveillance Plan, which formalized the contractor submittal procedures,
including additional emphasis on review requirements.

Summary
Contracting personnel effectively managed quality controls over the 11 contract actions,
totaling $53.6 million, to ensure that an adequate contractor quality control system was in
place and that the contractor delivered the intended outcomes for the project. Contracting
personnel ensured that Recovery Act funds met contract requirements and that projects
were fully funded. Contracting personnel also effectively validated a contractor’s small
business status and ensured that contractors reported their use of Recovery Act funds. As
of May 31, 2011, the Government accepted the contracted goods and services without
unnecessary delays and cost overruns for eight completed and three ongoing contract
actions totaling $39.5 million.

Review of Internal Controls
We identified one internal control weakness having to do with procedures for processing
the timely review and return of contractor submittals at the USACE Mobile District.
Contracting personnel at the USACE Mobile District did not have written procedures for
the timely review and return of contractor submittals have since published a Quality
Assurance Surveillance Plan. We will provide a copy of the final report to the senior
official in charge of internal controls for the USACE Mobile District.

Audit Scope and Methodology
We conducted this performance audit from January 2011 through December 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

                                            10
We made a judgmental selection of four Recovery Act projects at four locations for
review of the USACE Mobile District. We selected 4 of the 124 projects at USACE
Mobile based on project funding in excess of $1 million, ongoing or completed contracts,
and contracts awarded to Section 8(a) small businesses. The four projects had a total of
153 contract actions totaling $96.6 million. We judgmentally selected 11 of the
153 contract actions based on high-dollar amount and type of contract. From these four
projects, we reviewed a selection of 11 contract actions, including contracts, tasks orders,
and contract modifications totaling $53.6 million.

Specifically, we reviewed nine contract actions from two Civil Works projects at
the Tennessee-Tombigbee Project Management Office and the Black Warrior and
Tennessee-Tombigbee Project Management Office, totaling $38.4 million. We also
reviewed two contracts from two Military Program projects at the Tinker Air Force Base
and the Walter Reed Army Institute, totaling $15.2 million. We interviewed and obtained
documentation from operations, contracting, and financial personnel at the USACE
Mobile District Headquarters as well as each of the project offices.

Contractor Performance: We evaluated the contract administration process and the
adequacy of quality assurance controls to ensure project outcomes were achieved. We
reviewed the Contractor Quality Control Plan, which was included in either the contract,
statement of work, or contract administration plan. The inspection reports we reviewed,
showed that USACE inspectors documented the date, location, and description of work
performed and, if applicable, deficiencies found during their inspection. We reviewed
funding authorization documents and work allowance letters for consistency to determine
that funds were transferred from USACE Headquarters to the district and distributed from
the district to the individual projects. We reviewed the submittal registers containing the
information for 70 contractor submittals related to the contracts we selected.
Additionally, we visited and took pictures of three projects to illustrate the progress of the
work performed at the project sites.

Recipient Reporting: We reviewed selected recipient reports filed by contractors on
www.FederalReporting.gov. We reviewed the most current recipient reports to verify
that the general purpose of the award was reported as well as the nature of the activities
being performed, location of the recipients, cost and status of the contracts, project
outcomes, scope of the projects, and the number of jobs created and retained. Although
we determined that the contractor complied with FAR clause 52.204-11 and controls over
the oversight of recipient reporting, we did not validate the number of jobs created that
the contractor reported to the www.FederalReporting.gov Web site.

Small Business Oversight: We reviewed one contract action that involved small
business set-asides. We reviewed the contract files to determine whether contracting
officials reviewed each small business status by obtaining the online representations and
certification application or contractor’s representations and certifications and reviewing
the small business coordination record. We also held discussions with contracting
officials to determine their procedures for validating contractor small business status.



                                             11
Use of Computer-Processed Data
We used computer-processed data to perform this audit. Specifically, we used the
Federal Procurement Data System–Next Generation, Online Representations and
Certifications Application, CEFMS, and the Web sites www.Recovery.gov and
www.FederalReporting.gov in meeting our audit objective. We also used Excel
spreadsheets created by USACE contracting personnel. We compared data generated by
each system with the appropriate Civil Status of Funds reports, funding authorization
documents, or project and contracting documentation to assess the reliability of the
computer-processed data. From these procedures, we concluded that the data were
sufficiently reliable for our audit purposes.

Use of Technical Assistance
Before selecting DoD Recovery Act projects for audit, the Office of Auditing,
Quantitative Methods Division (QMD), analyzed all DoD agency-funded projects,
locations, and contracting oversight organizations to assess the risk of waste, fraud, and
abuse associated with each. QMD analysts selected most audit projects and locations
using a modified Delphi technique, which allowed them to quantify the risk based on
expert auditor judgment and other quantitatively developed risk indicators. QMD
analysts used information collected from all projects to update and improve the risk
assessment model. Initially, QMD analysts selected 83 projects with the highest risk
rankings; auditors chose some additional projects at the selected locations.

QMD analysts used additional predictive analytic techniques for special cases, such as
public works projects funded directly through USACE. We factored in workload
volume, proposed costs, geographic districts, and USACE districts and regions in
evaluating the relative risk of problems with oversight and completion.

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being
expended, but also of the types of public works projects managed by USACE.




                                            12
Prior Audit Coverage
The Government Accountability Office, the DoD Office ofInspector General, and the
Military Departments have issued reports and memoranda discussing DoD projects
funded by the Recovery Act. You can access unrestricted repOlis at
http;llwww.Recovery.gov/accountability.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
601-5868 (DSN 329-5868).


                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Financial Management and Reporting




                                           13
Recovery Act Projects Reviewed at USACE Mobile
          Contract                                                 Amount       Contract     Percent
                                            Purpose
           Action                                                                Type       Complete**
Tinker Air Force Base, OK          Design/Build of a Child        $8,815,411     Fixed           24
W91278-10-C-0070                   Development Center at                         Price
                                   Tinker Air Force Base
Walter Reed Army Institute         Waterproofing Repair of         6,417,176     Fixed           51
of Research, MD W91278-10-         Walter Reed Army Institute                    Price
D-0045,                            of Research Building 503
Task Order 1                       Basement and Tunnel Area
Black Warrior & Tombigbee          Dredging of the Navigation      2,250,880     Fixed          100
Rivers, AL                         Channel on the Upper Black                    Price
W91278-10-D-0021,                  Warrior and Tombigbee
Task Order 4                       River Systems
Black Warrior & Tombigbee          Maintenance Dredging of         3,296,992     Fixed          100
Rivers, AL                         the Upper Black Warrior and                   Price
W91278-09-D-0017,                  Tombigbee River System
Task Order 14*
Black Warrior & Tombigbee          Modification to add the         2,057,933     Cost-           54
Rivers, AL                         Requirement to Paint the                      Plus
W91278-06-C-0038                   Superstructure and
Modification P00093                Machinery at the Bankhead
                                   Spillway
Black Warrior & Tombigbee          Modification to add the         2,150,336     Cost-          100
Rivers, AL                         Requirement to Close,                         Plus
W91278-06-C-0038                   Dewater, Inspect, and Repair
Modifications P00072, P00084,      the Selden Lock
P00090*
Tennessee-Tombigbee                Maintenance Dredging to        16,784,688     Fixed          100
Waterway, AL & MS                  Correct Bevill Cross Current                  Price
W91278-10-D-0070,                  Problem, Aliceville Lake,
Task Order 2*                      Pickens County, Alabama
Tennessee-Tombigbee                Rental of Cutterhead            3,000,000     Fixed          100
Waterway, AL & MS                  Pipeline Dredges for                          Price
W91278-10-D-0070,                  Maintenance of the Black
Task Order 4*                      Warrior Tombigbee System
                                   and Other Mobile District
                                   Navigation Projects
Tennessee-Tombigbee                Dredging Shoals Within the      5,412,824     Fixed          100
Waterway, AL & MS                  Navigation Channel on and                     Price
W91278-09-D-0047,                  Along the Waterway
Task Order 1*
Tennessee-Tombigbee                Upgrade of Supervisory          1,197,594     Fixed          100
Waterway, AL & MS                  Control and Data                              Price
W91278-10-C-0051                   Acquisition and Hydromet
                                   Equipment for the Waterway
Tennessee-Tombigbee                Perform Slope Repair on the     2,256,813     Cost-          100
Waterway, AL & MS                  Divide Cut Area of the                        Plus
W91278-09-C-0020                   Tennessee-Tombigbee
                                   Waterway
  Total                                                           $53,640,647
* These contract actions are closed out.
** As of May 31, 2011.



                                                                                           Attachment
                                                                                           Page 1 of 1
